                                                                     Office of Inspector General

                                                                     U.S. Department of Homeland Security
                                                                     Central Regional Office
                                                                     Office of Disaster Assistance Oversight
                                                                     3900 Karina Street, Room 224
                                                                     Denton, Texas 76208




                                    March 2, 2007


MEMORANDUM FOR:              E.C. Smith, Director
                             FEMA Texas Transitional Recovery Office



FROM:                        Tonda L. Hadley, Director
                             Central Regional Office

SUBJECT:                     Interim Review of Hurricane Rita Activities
                              Jefferson County, Texas
                             FEMA Disaster Number DR-1606-TX
                             Public Assistance Identification Number 245-99245-00
                             Report Number DD-07-07


We performed an interim review of public assistance funds awarded to Jefferson County, Texas
(County). Our objective was to determine whether the County expended and accounted for Federal
Emergency Management Agency (FEMA) funds according to federal regulations and FEMA
guidelines.

As of August 25, 2006, the cut-off date for our review, the County received an award of $45.6
million from the Texas Governor’s Division of Emergency Management, a FEMA grantee, for
damages resulting from Hurricane Rita. The award was for 126 FEMA-eligible projects funded at
100% for emergency work and 90% for permanent work. We reviewed costs for four projects
totaling $35.1 million, or 77% of the award (see Exhibit).

We performed this review under the authority of the Inspector General Act of 1978, as amended, and
according to Quality Standards for Inspections issued by the President's Council on Integrity and
Efficiency. Our review included interviews of County, State, and FEMA officials; reviews of the
County’s accounting system, disaster cost documentation, and contracting policies and procedures;
and other procedures considered necessary under the circumstances.


                                    RESULTS OF REVIEW

In general, the County expended and accounted for FEMA funds according to federal regulations
and FEMA guidelines. The County properly accounted for FEMA funds by project and supported
project expenditures with invoices, copies of checks, and other documentation. Also, with minor
exceptions, the County followed federal procurement regulations to contract for debris removal and
monitoring. Therefore, we commend the County and State for a job well done. We identified the
following issues that resulted in questionable costs:

      •   In November 2005, FEMA advanced the County $24.5 million, of which the County has
          spent $23.2 million. As of July 2006, the County earned $186,393 interest on the FEMA
          funds. According to 44 CFR 13.21(i), subgrantees should promptly remit interest earned on
          advances.

      •   The County purchased small generators under Project 3062 to provide electric power during
          the disaster. With power restored, County officials no longer needed the generators and sold
          them for net proceeds of $49,686. FEMA policy defines small equipment purchases under
          $5,000 each as supplies. 1 If the aggregate fair market value of remaining supplies exceeds
          $5,000, 44 CFR 13.33(b) requires subgrantees to reimburse FEMA for the net sales proceeds.

      •   The County claimed $3,372 twice for the cost of vehicle hours claimed under Project 2901.

      •   Under Project 3062, the County purchased and retained supplies costing $15,531, including
          laptop computers, portable printers and an ID badge machine used during the disaster.
          According to FEMA policy, when remaining supplies exceed $5,000 and cannot be used for
          any other federally sponsored program, the sub-grantee must reimburse FEMA the fair
          market value of the supplies. Therefore, the County should either reduce its claim by the fair
          market value of the supplies or use the supplies for other federally funded programs.


                                           RECOMMENDATIONS

We recommend that the Director, Texas Transitional Recovery Office:

      1. Recover the $186,393 interest earned on FEMA funds as of July 2006 plus additional interest
         earned after that date.
      2. Disallow $53,058 questioned as proceeds from excess supplies ($49,686), and duplicate
         vehicle costs ($3,372).
      3. Ensure County officials either remit the fair market value of the remaining supplies to FEMA
         or use the supplies for other federally funded programs.




1
    Response and Recovery Directorate Policy Number 9525.12.


                                                         2
             DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

We discussed the results of our review with County officials on September 13, 2006, and with State
and FEMA officials on December 06, 2006. These officials concurred with our findings and
recommendations. Please advise this office by May 2, 2007, of the action taken or planned to
implement the recommendations, including target completion dates for any planned actions. Should
you have any questions concerning this report, please call me at (940) 891- 8900 or Audit Manager
Christopher Dodd at (940) 465-4018.


cc:    DHS Audit Liaison
       FEMA Audit Liaison
       Chief Financial Director, Gulf Coast Recovery Office
       Deputy Director, Gulf Coast Recovery Office
       Regional Director, FEMA Region VI
       Public Assistance Officer, FEMA Texas Transitional Recovery Office
       Chief of Staff, FEMA Texas Transitional Recovery Office
       Texas State Coordinating Officer
       Texas State Auditor




                                                3
                                                                                                             EXHIBIT


                                  Schedule of Projects Reviewed
                                     Jefferson County, Texas
                                FEMA Disaster Number DR-1606-TX



                           Project         Award             Amount             Questioned
                           Number         Amount 2           Claimed 3            Costs

                               3         $32,640,000         $23,157,997          $186,393
                             2901          1,443,179           1,443,179            49,686
                             3062            457,324             457,320             3,372
                             3446            599,040             599,040

                            Totals       $35,139,543         $25,657,536          $239,451




2
  The total $45.6 million award was for 126 FEMA-approved projects, 43 large and 83 small. Federal regulations in
effect at the time of the disaster set the large project threshold at $55,500.
3
  Represents the amount claimed as of August 25, 2006, the cut-off date for our review. At that time, the four projects
reviewed remained open.


                                                            4
